NO. 21-

In The

Supreme Court of the United States
In re Willie S. Smith

PETITION FOR WRIT OF HABEAS CORPUS
PROOF OF SERVICE

Willie S. Smith
P.I.N. A-312-990
Richland Correctional Inst.
1001 Olivesburg Road
Post Office Box 8107
Mansfield, Ohio 44901-8107
Petitioner pro se
Mr. Dave Yost: Attorney General of Ohio
State Office Tower,
30 East Broad Street. 16th Floor
Columbus, Ohio 43215

ii

I Willie S. Smith, do swear or declare that on this June 16, 2021 as
required by Supreme Court rule 29. I have served the enclosed,
Motion for leave to proceed in Forma Pauperis and Petition for Writ
of Habeas Corpus, and Certificate of Compliance on each party to
the above proceeding or opposing party’s counsel, and every other
person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed
to each party ,with first- class postage prepaid, or by delivery to a
third -party commercial carrier for certified delivery within 3
calendar days.

The names and addresses of those served are as follows:
Mr. Dave Yost:; Attorney General of Ohio
State office Tower,
30 East Broad Street ,16th Floor
Columbus, Ohib 43215

I declare under penalty of perjury that the forgoing is true and
correct pursuant to 28 U.S. C. § 1746. Executed on June 16, 2021

Willie S. Smith
Richland Correctional Institution
P.0 Box 8107
Mansfield, Ohio 44901
Pro se Litigant

